SEC.gov |  Printing and Publications Summary
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Printing and Publications Summary
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
PRINTING AND PUBLICATIONS SUMMARY
Audit No. 335
February 4, 2002
EXECUTIVE SUMMARY
We found that printing and publications were generally efficient, effective and in compliance with applicable guidance.  Our recommended enhancements include: distributing an electronic version of the SEC Docket (with estimated annual savings of approximately $150,000); modifying publication procedures for forms; enhancing supervisory controls over the Publications Section; and enhancing tracking of the Publishing Branch's workload, and increasing its storage capacity.
OBJECTIVES AND SCOPE
We sought to determine whether printing and publications were efficient and effective, and complied with applicable guidance.  During the audit, we reviewed relevant documentation, identified and tested management controls, interviewed staff from the Commission and the Government Printing Office, and observed activities in the Publishing Branch, among other procedures.
The audit was performed in accordance with generally accepted government auditing standards between May and August 2001.
BACKGROUND
Under Title 44, the Congressional Joint Committee on Printing (JCP) issued the Government Printing and Binding Regulation.  This regulation governs the production of printed material in the Federal Government, and the operation of the Government Printing Office (GPO).
The JCP has authorized printing plants in approximately 30 federal agencies (including the Commission) to print material not procurable through GPO.  The JCP limits production by agency printing plants to 5000 pages per original page and an aggregate of 25,000 pages per job, without prior GPO approval.
The Government Printing Office (GPO) prints material for Congress, and serves as the focal point for Federal printing, binding, and information dissemination.  In the past, GPO relied on conventional ink-on-paper printing.
Today, GPO provides government information in a wide range of formats, including printing, microfiche, CD-ROM, and online through GPO Access.  GPO has also established Simplified Purchase Agreements (SPA), which permit the Commission and other agencies to acquire printing and related services costing $2500 or less directly from GPO approved vendors.
At the Commission, the Publishing Branch of the Office of Administrative and Personnel Management (OAPM) is primarily responsible for printing and publications.  Commission regulation SECR1-2 describes internal printing and publication procedures.
The Printing Section within the Publishing Branch prints forms, regulations, training manuals, reports, special projects, and other documents.  The Branch also includes a Publications Section, which provides staff and the public with paper copies of agency forms and publications, many of which are now available on the Internet.
AUDIT RESULTS
We found that generally, the Publishing Branch effectively and efficiently managed Commission requirements for printing and publications, and complied with JCP and Commission regulations.  We identified several possible enhancements, as explained below.
SEC DOCKET
The Publishing Branch prepares the SEC Docket through a GPO contractor.  The Docket, which lists official Commission actions and notices, is generally about 100 pages long and issued weekly.  Of the total production of about 500 copies, all but 54 are sent to Commission staff, with the rest distributed to the public.
The Office of the Secretary, which prepares the Docket, would prefer to distribute it to the staff electronically.  Besides reducing printing and postage costs, electronic distribution would save time for the Publishing Branch.  We estimate the total cost savings of this change would exceed $150,000 annually.
Recommendation A
In consultation with the Offices of the Secretary and Information Technology, OAPM should develop procedures for distributing the SEC Docket electronically to Commission staff and the public.
Management response: OAPM has begun implementing this recommendation.
FORM PUBLICATION
Form coordinators in the divisions of Market Regulation, Investment Management, and Corporation Finance told us that the Publications Section sometimes disseminates incorrect versions of Commission forms.  In some cases the form's effective date is not printed on the form, so the Publications Section does not know which version of the form is current.
Besides an effective date, forms also have an expiration date.  We reviewed three expiring forms, and noticed that two of the forms had incorrect expiration dates of October 31, 2001, rather than the correct date of December 31, 2001.  This error might confuse the public and raise questions about a form's validity.  According to the Office of Management and Budget, the public is not required to provide information requested through expired forms.
Two divisions indicated that they update expiring forms (after being notified by the Commission's Forms Coordinator that they are about to expire) by retyping them, because they do not keep an electronic version.  Forms should be updated before they expire when they are affected by substantive rule changes.
One division indicated that it keeps a file of standard publications to help ensure timely updating of their forms, as recommended by the Commission's Publications Regulation (SECR1-2).  However, more than one division uses some forms.  In these cases, the divisions suggested that one division or OAPM could maintain an electronic master copy.
Recommendation B
The divisions of Market Regulation, Corporation Finance, and Investment Management and OAPM should improve procedures for form publication by addressing the issues discussed above, as resources permit (i.e., effective and expiration dates, timely updating, electronic master copies).
SUPERVISORY CONTROLS
The Publications Section has not had a section chief since the prior chief retired.  The Printing Section Chief is supposed to evaluate the performance of the four clerks in the Publications Section.
The Printing Section Chief needs to balance his time appropriately between the Printing and Publications Sections to ensure adequate supervision of the Publications Section.  In that way, performance measurement and review of employees in the Publications Section can be enhanced, and significant issues in the section can be resolved promptly.
Recommendation C
OAPM should enhance supervisory controls over the Publications Section.
PRINTING CONTROLS
The Publishing Branch assigns a control number to each printing request from staff.  After it prepares digital or camera-ready documents, the request is sent to the Printing Section, which assigns a different control number.  Printing requests would be tracked better if one number were assigned to each request, not two.
The Publications Section scans printing requests and saves them on the server (for 30 days, unless the information is used repeatedly).  Storage is necessary to allow users to make changes and to reuse the document as needed.  Storage space on the server is quite limited, and many projects contain large graphics files.  On several occasions, the Publishing Branch lost data when system capacity was exceeded.
Recommendation D
OAPM should maintain one tracking number for printing requests.
Recommendation E
OAPM should consult with the Office of Information Technology on the most cost-effective method to meet its storage needs.
Management response: OIT indicated that it intends to review the storage requirements for the Publishing Branch and will recommend a long-term solution to OAPM.
FCIC PUBLICATIONS
The Federal Communication Information Center (FCIC) maintains an electronic library of information for the public.  The Publishing Branch has provided ten investor education brochures to the FCIC for posting in the library.  However, the Branch has not yet provided FCIC a Spanish language version of one brochure: "Ask Questions (Prequnte!)."
Recommendation F
OAPM should provide the FCIC an electronic copy of the brochure named above, and any other foreign language brochures the Commission has developed.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us